Capital Case
Case No. 19-1105

In the Supreme Court of the United States

Tommy Sharp, Interim Warden,
Oklahoma State Penitentiary,
Petitioner,
v.
Jimmy Dean Harris,
Respondent.
_______________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
RESPONDENT’S BRIEF IN OPPOSITION

Respondent, Mr. Harris, respectfully requests leave of this Court to file Respondent’s
Brief in Opposition to Petitioner’s Petition for Writ of Certiorari without payment of costs
and to proceed in forma pauperis pursuant to Rule 39 of the Rules of the Supreme Court of
the United States and 18 U.S.C. § 3006A(d)(7). In support thereof, Respondent states as
follows:
Jimmy Dean Harris is in the custody of the State of Oklahoma, Oklahoma Department
of Corrections, Oklahoma State Penitentiary, incarcerated under a conviction of first-degree
murder for which he has been sentenced to death.

Mr. Harris is indigent and has been represented by court-appointed counsel throughout
the proceedings against him. On April 11, 2008, the United States District Court for the
Western District of Oklahoma, Case No. CIV-08-375-F (Doc. 4), appointed court-appointed
counsel, Jack Fisher, to represent Mr. Harris in federal habeas corpus proceedings. On June
8, 2017, the Tenth Circuit Court of Appeals granted counsel’s Motion to Continue CJA
Appointment on Appeal, Case No. 17-6109, and appointed counsel Jack Fisher and the
Federal Public Defender’s Office to represent Mr. Harris pursuant to18 U.S.C. §§ 3006A(c)
and 3599(a)(2). See Order filed June 8, 2017. This filing is in compliance with Sup. Ct. R.
39.1 and 39.2 and is preceded and attached to the front of each copy of Respondent’s Brief
in Opposition.
Respectfully submitted,
s/Emma V. Rolls
JACK FISHER
Okla. Bar # 2939
Fisher Law Office
P. O. Box 1976
Edmond, OK 73083
Telephone: (405) 235-9466
Facsimile: (405) 340-7269
Okfishlaw@aol.com

EMMA V. ROLLS*
Okla. Bar # 18820
Assistant Federal Public Defender
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
Telephone: (405) 609-5975
Facsimile: (405) 609-5976
Emma_Rolls@fd.org

COUNSEL FOR RESPONDENT/APPELLEE,
JIMMY DEAN HARRIS

* Counsel of Record

Dated this 18th day of May, 2020

